<html>
<title> - MARKUP OF H.R. 3985, H.R. 3987, H.R. 4081, H.R. 4203, AND H.R. 4206</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]







  MARKUP OF H.R. 3985, H.R. 3987, H.R. 4081, H.R. 4203, AND H.R. 4206

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD
                             MARCH 22, 2012

                               __________



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




            Small Business Committee Document Number 112-060
              Available via the GPO Website: www.fdsys.gov



                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

76-467                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                   HOUSE COMMITTEE ON SMALL BUSINESS

                     SAM GRAVES, Missouri, Chairman
                       ROSCOE BARTLETT, Maryland
                           STEVE CHABOT, Ohio
                            STEVE KING, Iowa
                         MIKE COFFMAN, Colorado
                     MICK MULVANEY, South Carolina
                         SCOTT TIPTON, Colorado
                      CHUCK FLEISCHMANN, Tennessee
                         JEFF LANDRY, Louisiana
                   JAIME HERRERA BEUTLER, Washington
                          ALLEN WEST, Florida
                     RENEE ELLMERS, North Carolina
                          JOE WALSH, Illinois
                       LOU BARLETTA, Pennsylvania
                        RICHARD HANNA, New York

               NYDIA VELAZQUEZ, New York, Ranking Member
                         KURT SCHRADER, Oregon
                        MARK CRITZ, Pennsylvania
                      JASON ALTMIRE, Pennsylvania
                        YVETTE CLARKE, New York
                          JUDY CHU, California
                     DAVID CICILLINE, Rhode Island
                       CEDRIC RICHMOND, Louisiana
                         GARY PETERS, Michigan
                          BILL OWENS, New York
                      BILL KEATING, Massachusetts

                      Lori Salley, Staff Director
                    Paul Sass, Deputy Staff Director
                     Barry Pineles, General Counsel
                  Michael Day, Minority Staff Director















                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Hon. Sam Graves..................................................     1
Hon. Nydia Velazquez.............................................     2

                               WITNESSES

None

                                APPENDIX

Prepared Statements:
    None
Questions for the Record:
    None
Answers for the Record:
    None
Additional Materials for the Record:
    None

 
  MARKUP OF H.R. 3985, H.R. 3987, H.R. 4081, H.R. 4203, AND H.R. 4206

                              ----------                              


                       WEDNESDAY, MARCH 22, 2012

                          House of Representatives,
                               Committee on Small Business,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10:00 a.m., in Room 
2360, Rayburn House Office Building. Hon. Sam Graves [chairman 
of the Committee] presiding.
    Present: Representatives Graves, Bartlett, Chabot, King, 
Coffman, Mulvaney, Tipton, Landry, Herrera Beutler, West, 
Ellmers, Walsh, Barletta, Hanna, Schilling, Velazquez, 
Schrader, Critz, Clarke, Chu, Cicilline, Richmond, Hahn, 
Peters, Owens, Keating.
    Chairman Graves. Good morning. I will call this Committee 
hearing to order.
    The Committee is in the midst of an effort to enact 
comprehensive reform of government contracting to help small 
businesses. Our efforts began with 10 hearings on contracting 
topics. And this was followed by the introduction of 8 
contracting bills supported by over 20 trade associations. Last 
week, the Committee marked up four of those bills, plus two 
additional bills introduced by the minority. This week, we are 
going to mark up the remaining four bills, plus a bill 
introduced by the Ranking Member. And I believe this is a 
testament to the importance of government contracting for small 
businesses, and I think it is a tribute to the bipartisan 
nature of this Committee.
    While we are going to briefly discuss each of the bills 
individually before we mark it up, I want to emphasize how 
important these issues are to small businesses and taxpayers. 
The federal government regularly spends over half a trillion 
dollars on federal contracts each year, and has spent over $100 
billion so far this year. When small businesses compete for 
those contracts, something important happens: we get jobs 
created, innovation occurs, competition brings down prices. So, 
in short, when small businesses win, we all win.
    Today we are examining some of the key issues for small 
businesses such as who is actually small. We are making sure 
that the programs intended to help small businesses deliver 
results and do not inadvertently harm the very businesses they 
are supposed to help. We are halting unjustified contract 
bundling, which will result in more competition; we are 
standardizing the assistance we provide to the subcategories of 
small businesses; and we are protecting the taxpayers against 
fraud.
    All of these issues deserve support, and I look forward to 
working with all of you today to move these bills one step 
closer to becoming law.
    And I now recognize Ranking Member Velazquez.
    Ms. Velazquez. Thank you, Mr. Chairman. Small businesses 
continue to be at the center of the economy, creating nearly 
two-thirds of net employment gains. Seizing on this job-
creating power is essential to move the economy forward. As a 
result, it is important that we help lay the foundation for 
their success.
    One way to do this is to provide entry for small 
enterprises into the federal procurement marketplace. As a $500 
billion market for goods and services, the government buys 
everything from paper to furniture, to aircraft carriers. At 
every point in this procurement process small firms should have 
an opportunity to compete for the government's business. 
Unfortunately, this vision is far from reality. The government 
continues to struggle to meet the 23 percent goal for small 
firms and has not even come close to achieving the 5 percent 
goal for women-owned businesses. Fraud in contracting programs 
continues to increase as contracts are still being channeled to 
ineligible companies. And finally, contract bundling and 
consolidations remain a key problem and small businesses lack 
the tools and resources to fight back.
    Tackling these problems is the right thing to do and I am 
hopeful that the legislation we consider today will take steps 
in the right direction. In this regard, I want to thank the 
chairman for continuing to work with us in a bipartisan manner 
on these bills.
    And I thank the chairman and I yield back the balance of my 
time.
    Chairman Graves. All right. We will be marking up the five 
contracting bills. We are going to do it in the order that they 
were--that we noticed them out.
    The first bill is H.R. 3985, the ``Building Better Business 
Partnerships Act of 2012.'' It was introduced by Mr. Schilling 
and Ms. Chu. I now yield to Mr. Schilling to speak on 3985.
    Mr. Schilling. Thank you, Chairman, and thank you, Ranking 
Member Velazquez. I want to thank Representative Chu for her 
work on H.R. 3985 and the efforts of the Committee to reform 
the federal contracting process.
    I have owned my small pizzeria for more than 15 years and 
understand firsthand how difficult and basically limiting some 
federal programs can be for small business owners to navigate 
and access through. Contracting with the federal government is 
really no different.
    I have heard from numerous job creators in my district 
about how valuable winning and retaining federal contracts are 
to growing their business and how the end results affects men 
and women they employ. Most recently, we helped a gentleman 
navigate successfully through and gain a Navy contract, which 
was a great win for our area.
    With unemployment over 9 percent in my home state of 
Illinois, every job counts. The bill we have introduced focuses 
on improving and streamlining 13 mentor-protege programs, which 
pair new businesses looking to increase their government 
contracts with more experienced businesses.
    The GAO report released last year revealed there are a 
number of issues that need to be addressed with the mentor-
protege program. First, the GAO report revealed duplication 
among programs, creating more unnecessary paperwork for 
businesses. Secondly, participants risk losing their small 
affiliation when working with other businesses. And thirdly, 
some programs lack accountability. And lastly, the majority of 
our small businesses do not qualify to participate.
    H.R. 3985 addresses these issues by placing the SBA in 
charge of overseeing and setting standards for the 13 existing 
programs based on the concerns I have just listed. It also 
requires the SBA to collect data from the agencies regarding 
the number and types of participants, including the number of 
HUBZone, veteran-, and women-owned businesses. Data showing the 
ability of businesses to retain these contracts is also 
required and must be submitted to Congress.
    Ultimately, our bill will improve mentor-protege programs, 
making it easier for small firms to compete for and win 
contracts, enabling them to grow, create jobs, and get folks 
back to work.
    I thank you for the opportunity and urge Members of the 
Committee to support H.R. 3985.
    Chairman Graves. And I yield to Ranking Member Velazquez.
    Ms. Velazquez. Thank you, Mr. Chairman. Mentor-protege 
programs have been successful across 13 federal agencies to 
enhance the ability of small firms to compete for federal 
government contracts by furnishing them with a system to 
improve their performance. To this point the GAO reported at a 
Small Business Committee hearing last year that all--all--13 
agencies have established policies and procedures for 
administering and monitoring their programs. GAO found that 
agencies have requirements in place to conduct periodic reviews 
as well as controls to help ensure that mentors and proteges 
meet eligibility criteria and benefit from participation in the 
program.
    As a result of GAO's findings, it seems to me unnecessary 
and potentially problematic that the legislation will require 
the SBA to approve all mentor-protege programs government-wide. 
Given SBA's track record of delay and inaction, the agency 
could effectively shut down these initiatives across the 
government by merely delaying an approval or disapproval 
decision.
    And I want to be on record on this. I do not want to see 
that these programs are shut down and then members will call me 
or you, Mr. Chairman, to question why is it that we allow for 
this program to expire. While the true benefits of this program 
are uncertain, it is not advisable in this stage of the 
recovery to discontinue any source of small business support 
simply because the SBA is unable to act timely to approve 
otherwise well-functioning mentor-protege programs as it was 
substantiated by the GAO report. In fact, the GAO analysis 
suggests that the programs are operating well without any 
additional bureaucratic layer of oversight. Plus, given SBA's 
poor track record of oversight of the HUBZone program, it gives 
me little comfort that we are handing the agency a similar 
responsibility.
    With these concerns in mind, I hope that the legislation 
will continue to be improved as it heads to the floor. Mentor-
protege programs remain an important resource for many small 
businesses, enabling them to learn the ropes from more 
experienced contractors. Improving them is important, but we 
must make sure that future changes do not undermine the very 
strength of those mentor-protege programs in existence today.
    And with that, I yield back the balance of my time.
    Chairman Graves. Do other Members wish to be recognized for 
a statement on H.R. 3985? Ms. Chu.
    Ms. Chu. I hear over and over again from small businesses 
one question: How do I break into federal contracting? With 
average annual spending at $500 billion there is no better way 
for small businesses to expand during these tough times than 
through federal contracts.
    Historically, however, it has been difficult for small 
businesses to gain a toehold in the federal procurement system. 
To help small businesses gain entry into the federal 
marketplace, mentor-protege programs were established. This 
program allows smaller firms the opportunity to work directly 
with larger vendors. This can provide them with vital 
experience and lead to future opportunities, which will, 
hopefully, lead to getting more federal contracts in the hands 
of small business.
    The Building Better Businesses Partnership Act of 2012 will 
help small firms break into federal contracting by making it 
easier for them to join mentor-protege programs. This bill will 
streamline the process by putting these programs under one 
agency, the SBA, and create better oversight over the programs 
so that small businesses truly benefit from the agreements. It 
will address the GAO report issues by determining how well the 
program goals have been achieved.
    Helping small businesses win contracts will help put 
Americans back to work. And with two out of every three jobs 
coming from small businesses, this bill will help the true 
driving force behind America's economy.
    I ask my colleagues on the Small Business Committee for 
their support. Thank you, and I yield back.
    Chairman Graves. Does any other Member wish to be heard on 
the bill?
    The Committee now moves consideration of H.R. 3985. Clerk, 
please report the title of the bill.
    The Clerk. H.R. 3985: To amend the Small Business Act with 
respect to mentor-protege programs and for other purposes.
    Chairman Graves. Without objection H.R. 3985 is considered 
read and open for amendment at any point.
    [The bill H.R. 3985 follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Chairman Graves. Does anyone have an amendment? I believe, 
Ms. Chu, you have an amendment.
    Ms. Chu. Yes, sir. Yes. Mr. Chairman, I have a perfecting 
amendment to H.R. 3985.
    Chairman Graves. Clerk, please report the amendment.
    The Clerk. Amendment 1 to H.R. 3985 offered by Ms. Chu of 
California.
    Chairman Graves. Without objection the amendment is 
considered as read. The gentlelady has five minutes.
    [Amendment 1 to H.R. 3985 offered by Ms. Chu follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Ms. Chu. Mr. Chair, I have a perfecting amendment to the 
Building Better Business Partnerships Act. The amendment 
clarifies that program regulations must protect proteges 
against actions that negatively impact them or provide 
disproportionate benefits to the mentor. It also allows for 
current mentor-protege agreements to be grandfathered into the 
new program until the expiration date of their agreement.
    The amendment also says that agencies operating mentor-
protege programs will be allowed six months after the 
regulations are transmitted to submit their mentor-protege 
plans and then provide a detailed timeline for SBA's approval 
of these plans.
    Finally, the amendment requires a GAO report to assess the 
impact of the changes to the mentor-protege program.
    This amendment was crafted with input from the majority and 
minority sides of the Committee and strengthens the language of 
the bill. I ask for the Committee's support.
    Chairman Graves. Does any other Member wish to be heard on 
the amendment? Mr. Schilling.
    Mr. Schilling. Yes, thank you. I believe this is a good 
amendment that makes H.R. 3985 stronger, more accountable, and 
further protects small businesses, and I urge Members to 
support Representative Chu's amendment.
    Chairman Graves. Does any other Member wish to be heard on 
the amendment?
    Seeing none, the gentlelady's amendment, I think it 
furthers the intention of the bill and it was done through 
bipartisan discussions. So with that, I am very pleased to 
support the gentlelady's amendment.
    And a question. The question is on the amendment offered by 
Ms. Chu. All those in favor say aye.
    [A chorus of ayes.]
    Chairman Graves. Opposed no.
    [No response.]
    Chairman Graves. In the opinion of the chair the ayes have 
it. The ayes do have it. The amendment is agreed to.
    Does any other Member wish to be recognized for an 
amendment?
    Seeing none, the question is on agreeing to H.R. 3985 as 
amended. All those in favor say aye.
    [A chorus of ayes.]
    Chairman Graves. All opposed no.
    [No response.]
    Chairman Graves. It is the opinion of the chair that the 
ayes have it. H.R. 3985 is agreed to without objection. A 
quorum being present, the bill is favorably reported to the 
House. And without objection the Committee staff is authorized 
to correct punctuation and make other necessary technical 
changes and conforming changes.
    Our next bill for consideration is H.R. 3987, the ``Small 
Business Protection Act of 2012,'' which is introduced by Mr. 
Walsh and Mr. Connolly. I now yield to Mr. Walsh to speak on 
3987.
    Mr. Walsh. Thank you, Mr. Chairman, and thank you, Ranking 
Member Velazquez. As you know, the SBA has proposed radically 
new size standards for small business government contracting 
that do not just alter the size standard for each industry, 
but, in some instances, actually combine several different 
industries into a new common group under a single size 
standard. The problem is that in creating these new common 
groups SBA, by its own analysis, is excluding legitimate small 
businesses from small business contracting programs and 
allowing large businesses to participate in the same programs.
    For example, let us look at architecture and engineering 
firms. SBA's own metrics and analysis shows that architecture 
firms should have a small business size standard of $7 million 
and engineering firms of 25.5 million. Yet, SBA has decided to 
combine them into a common group and assign them a size 
standard of 7 million, which is completely inappropriate for 
either of them. In the one instance it legitimately excludes 
small businesses from competing for government contracts and in 
the other it forces legitimate small businesses to compete 
against much larger firms. In fact, the American Institute of 
Architecture has estimated that this new size standard will 
include 98 percent of all architecture firms.
    I think we can all agree that situations like this are not 
in the best interest of small businesses. After all, size 
standards do not exist for the ease of the SBA, but for the 
benefit of America's small businesses. The Small Business 
Protection Act is simple: It protects legitimate small 
businesses in government contracting by requiring that the size 
standard assigned to each new common group is appropriate for 
each industry included in that group. Without this bill small 
businesses, the backbone of the American economy, will be 
driven out of competition for government contracts.
    And I yield back.
    Chairman Graves. I now recognize Ranking Member Velazquez 
for opening comments.
    Ms. Velazquez. Mr. Chairman, the complexity of size 
standards is only exceeded by the process in which they are set 
and revised. Providing greater transparency to this complicated 
machinery is important. While SBA has recently taken major 
actions on size standards, this proposal will obviously have no 
effect on them.
    However, increasing small businesses' awareness of the size 
standard process during the proposed rulemaking stage is 
essential. To this point it is important that SBA provide the 
public with a competitive landscape of the affected industry. 
The approach the agency used to determine the new standard, the 
source of the agency's data, and the specific impact on the 
industry, such openness will only enhance small businesses' 
ability to understand what has become an opaque decision-making 
process at the agency. Given the size standard determinations 
can limit firms' ability to secure government contracts, 
receiving training or secure financing, it is vital that these 
decisions are done in the most transparent fashion possible. 
Bringing sunlight to this shadowy area of the SBA should be a 
priority.
    And for that, I thank you and I yield back the balance of 
my time.
    Chairman Graves. Does any other Member wish to be 
recognized for a statement on H.R. 3987?
    Seeing none, I think this bill addresses a central issue of 
the Committee's work and that is what is a small business. So 
without objection, would the clerk please report them?
    The Clerk. H.R. 3987: To amend the Small Business Act with 
respect to small business concerning size standards and for 
other purposes.
    Chairman Graves. Without objection H.R. 3987 is considered 
read and open for amendment at any point.
    [The bill H.R. 3987 follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Chairman Graves. Does any Member have an amendment? I 
think, Mr. Walsh, you do.
    Mr. Walsh. Yes, Mr. Chairman. My amendment makes two----
    Chairman Graves. Let the clerk report it.
    Mr. Walsh. Amendment Number 1.
    The Clerk. Amendment Number 1 to H.R. 3987 offered by Mr. 
Walsh of Illinois.
    Chairman Graves. Without objection the amendment is 
considered read. The gentleman has five minutes.
    [Amendment 1 to H.R. 3987 offered by Mr. Walsh follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Walsh. Thank you, Mr. Chairman. The amendment makes two 
small changes to the Small Business Protection Act.
    First, it requires that the SBA make publicly available its 
analysis and rationale when revising size standards or creating 
new ones. I think we can all agree, as the Ranking Member said, 
that more transparency here is a good thing and will help 
prevent further instances like the one we are correcting here.
    Second, it prohibits SBA from artificially limiting the 
number of size standards. Our goal with this entire process is 
for the SBA to create and maintain the most accurate size 
standards possible. This amendment keeps the SBA from choosing 
administrative ease over the correct number of size standards.
    Thank you, Mr. Chairman, and I yield back.
    Chairman Graves. Does any other Member wish to be heard on 
the amendment?
    Seeing none, the amendment as developed through 
discussion----
    Ms. Velazquez. Yes, Mr. Chairman, I would like----
    Chairman Graves. Oh, yes, absolutely.
    Ms. Velazquez. I would like to say something about this 
amendment.
    Chairman Graves. Of course.
    Ms. Velazquez. Mr. Chairman, this amendment will guarantee 
that SBA does not try to make the industry fit the size 
standard, but that an individual size standard will be created 
for each industry. While the amendment made great strides in 
trying to guarantee fair process for small businesses, the 
amendment and corresponding bill still failed to provide an 
agency appeal process for small businesses if they feel the 
size standard does not adequately represent their industry. 
Instead, small businesses will be faced with either expending 
their limited time and money to challenge the size standard or, 
the more likely scenario, accept the standard developed by SBA 
and be excluded from small businesses programming.
    I hope that as we move forward with this piece of 
legislation and on future bills we can come up with a 
meaningful option for small businesses to challenge unfair 
standards. Thank you.
    Chairman Graves. Does any other Member wish to be heard on 
the amendment?
    The basis of the SBA's size standards, I think, should be 
public so that businesses can better understand the SBA's 
rationale and challenge it when appropriate. Furthermore, I 
think SBA should not be allowed to force over 1,100 industries 
into 16 size standards. The facts, not SBA's administrative 
ease, should dictate the size standards, and I do support the 
amendment.
    So with that, the question is on the amendment offered by 
Mr. Walsh. All those in favor say aye.
    [A chorus of ayes.]
    Chairman Graves. All opposed no.
    [No response.]
    Chairman Graves. In the opinion of the chair the ayes have 
it. The amendment is agreed to.
    Does any other Member wish to offer an amendment?
    Seeing none, the question is on agreeing to H.R. 3987 as 
amended. All those in favor say aye.
    [A chorus of ayes.]
    Chairman Graves. All opposed no.
    [No response.]
    Chairman Graves. In the opinion of the chair the ayes have 
it. H.R. 3987 is agreed to without objection. A quorum being 
present, the bill is favorably reported to the House. And 
without objection the Committee staff is authorized to correct 
punctuation and make other necessary technical corrections and 
conforming changes.
    With that, our next bill for consideration is H.R. 4081, 
the ``Contractor Opportunity Protection Act of 2012,'' which I 
introduced with Mr. West. This bill addresses what may be the 
top complaint I received from small business contractors, which 
is contract bundling or the process of taking what could be 
several small contracts and packing them together as one large 
contract that is simply too big for small businesses to 
compete. Sometimes bundling is justified, in which case it can 
proceed. But in other cases, it needlessly shuts down so many 
small businesses.
    This bill does four things. First, it clarifies the 
definition of ``bundling'' so that we can capture construction 
contracts. Second, it improves processes by eliminating the 
needless and duplicative distinctions between bundling and 
consolidation. And third, it makes the process objective and 
transparent using boards of contract appeals and Government 
Accountability Office's existing contracting appeals process to 
ensure that a neutral third-party makes decisions about 
bundling and to give small businesses a voice in this process. 
And finally, it holds agencies accountable.
    This bill requires agencies to demonstrate that the 
anticipated savings on a bundled contract actually materialize 
before they continue bundling a successor contract. I want to 
emphasize that I think this is one of the most important bills 
that we can pass if we want to help small businesses compete 
and save taxpayers money, and I urge the Committee to support 
it.
    I now recognize Ranking Member Velazquez for her statement.
    Ms. Velazquez. Thank you, Mr. Chairman. This is a good 
bill, straightforward. And for the longest time now at every 
meeting that we have done, hearing, in terms of contracting, we 
hear time and time again how contract bundling and contract 
consolidation is hurting small businesses.
    In fiscal year 2011, for instance, more than $50 billion 
worth of contracts were awarded through bundled or consolidated 
contracts. To address this, the legislation before us makes 
several key statutory changes. Most importantly, it expands the 
definition of what a bundled contract is and requires review by 
the SBA and procurement center representatives before the 
proposed procurement could occur, changes that were included in 
H.R. 1873, which this Committee approved in the 110th Congress.
    Similarly, an appeal process is included that enables both 
the SBA and affected small businesses to request further action 
to unbundle contracts. These are positive changes that will 
help small firms.
    However, changes to laws without an accompanying increase 
in enforcement personnel may do more harm than good. And in 
this regard, there is a glaring lack in oversight when trying 
to stop contract bundling. While government procurement 
spending has more than doubled between 2001 and 2010, from 233 
billion to 536 billion, resources dedicated to anti-bundling 
efforts have dwindled. So while the statutory changes in this 
legislation are welcome, it is unfortunate that we are not 
adding more cops on the beat.
    Do not get me wrong, this legislation makes positive 
changes, but without adequate enforcement, small businesses may 
be left out without the real change they crave.
    And with that, I yield back.
    Chairman Graves. Are there any other Members who wish to 
make a statement on 4081?
    Mr. Owens. Mr. Chairman.
    Chairman Graves. Yes, sir.
    Mr. Owens. Thank you. A question actually. Has any analysis 
been done to determine whether or not this will increase costs 
for government agencies if you fail to bundle what would be 
called small contracts?
    Chairman Graves. Barry.
    Counsel. I am not sure I actually understand the question. 
The concept of contract bundling implies that the federal 
agency has done an assessment as to whether or not it is 
actually saving money by taking contracts that were previously 
done by small businesses and combining them.
    Mr. Owens. So then, in fact, if I am understanding your 
response, even though you did not understand my question, in 
fact, they have done an analysis that the bundle is actually 
cheaper before they would go ahead and bundle.
    Counsel. There is nothing currently in law or changes being 
made in H.R. 4081 that prevents the government from bundling. 
It prevents the government from bundling when the government 
does not obtain what are called substantial measurable 
benefits. Those may be cost savings, they may be savings 
related to the delivery of the product as opposed to 
necessarily the actual cost savings. In other words, there may 
be other values that the government captures other than purely 
costs associated with the savings.
    Mr. Owens. Okay. Thank you.
    Counsel. Mm-hmm.
    Chairman Graves. Any other Member wish to be heard on H.R. 
4081?
    Clerk, please report the title of the bill.
    The Clerk. H.R. 4081: To amend the Small Business Act to 
consolidate and revise provisions related to contract bundling 
and for other purposes.
    Chairman Graves. Without objection H.R. 4081 is considered 
as read and open for amendment at any point.
    [The bill H.R. 4081 follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Graves. And I do have an amendment in the nature 
of a substitute, if the clerk would read the amendment.
    The Clerk. Amendment 1: Amendment in the nature of a 
substitute offered by Chairman Graves of Missouri.
    Chairman Graves. Without objection the amendment is 
considered as read.
    [Amendment 1 to H.R. 4081 offered by Chairman Graves 
follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Graves. And without objection the amendment is in 
the nature of a substitute. It shall be considered the base 
text for the purpose of the bill.
    Does anyone wish to offer an amendment to that?
    Seeing none, the question is on agreeing to H.R. 4081 as 
amended. All those in favor say aye.
    [A chorus of ayes.]
    Chairman Graves. All opposed no.
    [No response]
    Chairman Graves. In the opinion of the chair the ayes have 
it. H.R. 4081, as amended, is agreed to and without objection. 
A quorum being present, the bill is favorably reported to the 
House. And without objection the Committee staff is authorized 
to correct punctuation and make other necessary technical 
changes and conforming changes.
    Our next bill for consideration is H.R. 4206, the 
``Contracting Oversight for Small Business Jobs Act of 2012,'' 
which is introduced by Mr. Coffman. And I now yield to Mr. 
Coffman to speak on 4206.
    Mr. Coffman. Thank you, Mr. Chairman. I am very pleased 
that my legislation, H.R. 4206, the Oversight for Small 
Business Jobs Act of 2012, is being included in today's markup. 
Passage of this legislation will help small businesses comply 
with complicated size and contracting rules while provided a 
safe harbor provision for those small businesses which are 
making a good faith effort to comply with those rules.
    The bill goes on to establish real penalties for instances 
of fraud, including suspension or even debarment from 
eligibility in these programs. Such actions will do a great 
deal to ensure that only those firms which are truly eligible 
are taking part in these programs.
    H.R. 4206 also will raise fraud penalties so that the cost 
of litigation by the government no longer outweighs possible 
recovery, further increasing the likelihood that bad actors are 
identified, appropriately dealt with, and the programs can 
continue to provide valuable income streams to those small 
businesses which are truly eligible and will benefit.
    I urge my fellow Committee Members to support H.R. 4206, 
the Oversight for Small Business Jobs Act of 2012.
    Thank you, Mr. Chairman. I yield back the remainder of my 
time.
    Chairman Graves. I recognize Ranking Member Velazquez for 
comments.
    Ms. Velazquez. I congratulate the gentlemen on this 
legislation. As we all know, and we witnessed the GAO report on 
HUBZones, this is the one program that really is being filled 
with fraud and mismanagement. And we all know that this year 
across the government, federal agencies are unknowingly victims 
of contracting fraud. Investigations conducted by the GAO, as 
well as the SBA's Inspector General and other agencies, have 
discovered businesses making false statements in order to 
obtain preferential contracts awards under SBA's small business 
contracting programs. This has included instances of fraud in 
the SBA's 8(a), HUBZone, and Service-Disabled Veteran Programs, 
some of which were brought to light in testimony before this 
Committee.
    These instances have become more brazen and not only steal 
money from honest small businesses, but also the taxpayers. 
Stopping this behavior and making sure that these individuals 
cannot do business with the government is vital. By increasing 
penalties for companies who knowingly misrepresent their status 
as a small business we are helping the small firms who play by 
the rules and who should be rightfully competing for these 
awards. Strengthening the consequences will make would-be 
fraudsters think twice about scamming the government. 
Maintaining the integrity of the procurement process is a 
priority, and through weeding out bad actors we can ensure that 
small businesses and the taxpayers are not taken advantage of.
    And with that, I yield back, Mr. Chairman.
    Chairman Graves. Does any other Member have a statement on 
H.R. 4206?
    Seeing none, the Committee now moves to consideration of 
H.R. 4206.
    Ms. Velazquez. She had----
    Chairman Graves. Oh, I am sorry.
    Ms. Hahn. I have an amendment.
    Chairman Graves. We have to open it up, so hang on. Clerk, 
will you please report the title of the bill?
    The Clerk. H.R. 4206: To amend the Small Business Act to 
provide for increased penalties for contracting fraud and for 
other purposes.
    Chairman Graves. Without objection H.R. 4206 is considered 
as read and open for amendment at any point.
    [The bill H.R. 4206 follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Chairman Graves. Does a Member wish to--or have an 
amendment? And I know now Ms. Hahn, you are ready. Would the 
clerk please report the amendment?
    The Clerk. Amendment 1 to H.R. 4206 offered by Ms. Hahn of 
California.
    Chairman Graves. Without objection the amendment is 
considered as read. The gentlelady has five minutes.
    [Amendment 1 to H.R. 4206 offered by Ms. Hahn follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Ms. Hahn. Thank you, Mr. Chairman, Ranking Member 
Velazquez, and thank you to Mr. Coffman for introducing this 
legislation. I think this is an important step towards ensuring 
that small businesses who are awarded government contracts are 
actually small businesses.
    Just yesterday, this Committee held a hearing on 
entrepreneurship, where we learned, among other things, that 
immigrants were more than twice as likely to start businesses 
as non-immigrants, and that Latinos demonstrated the highest 
entrepreneurial activity in 2010, which is a good thing for 
this country. And given the importance of this bill and the 
surge in Latino business owners, it only makes sense to require 
that the SBA publish the Small Business Compliance Guide in 
Spanish as well as English. That is why I am offering my 
amendment to H.R. 4206, the ``Contracting Oversight for Small 
Business Jobs Act of 2012,'' which simply requires that all the 
regulations and guides the SBA will produce as a result of this 
act be made in Spanish.
    Many of the bills we are marking up today aim to increase 
government contracts to small businesses and to help them 
succeed. My amendment is a simple way, a simple step to make 
sure that these new business owners can comply with the new 
rules and regulations.
    Just before I came in here I ran into the California 
Hispanic Chamber of Commerce. They are walking the halls of 
Congress today and I am sure that they would agree with this 
simple step and would urge this Committee to accept my 
amendment. Thank you very much.
    Chairman Graves. Does any other Member wish to be heard on 
the amendment?
    Ms. Herrera Beutler. Mr. Chairman.
    Chairman Graves. Ms. Herrera Beutler.
    Ms. Herrera Beutler. I thank the Chairman and the 
gentlelady for offering the amendment. The only question I 
would have, I guess, is a question for the sponsor, if I can do 
that.
    What would you say--and as the first Hispanic to represent 
Washington State in the federal government, this is an issue 
near and dear to my heart. What would you say then if there 
were other groups who come forward and ask for this in their 
language? I mean, I am wondering about the slippery slope.
    Ms. Hahn. Well, the greatest slippery slope we could have 
in this country is more people starting their own businesses, 
expanding, hiring, and really turning this economy around. The 
only reason I introduced this specific language was because of 
what we heard in this Committee as Latinos having the highest 
entrepreneurial activity in 2010, and it certainly would be 
open to, you know, other languages as well.
    I think anything we can do to empower folks in this country 
to succeed----
    Ms. Herrera Beutler. I would agree and I am reclaiming my 
time on that. I think the most important thing we can do is set 
up people who are coming here to obtain the American dream, set 
them up to succeed. And one of the ways that I found in my 
family is making sure that they are able just to start their 
business and serve customers, and one of the ways that they can 
do this is making sure that they have the support that they 
need and obviously speaking and being able to communicate in 
different languages. Obviously they are not going to learn 
every language of somebody who walks into their door.
    But I just--I would agree, the goal is to support them. And 
in considering this, that is how I am going to look at it, what 
is going to best set up any immigrant family who wants to come 
here and take hold of the American dream, what is going to set 
them up for success.
    So with that, I yield back.
    Mr. Cicilline. Mr. Chairman.
    Ms. Velazquez. Would the gentlelady yield for a second?
    Ms. Herrera Beutler. I yield.
    Ms. Velazquez. Okay.
    Mr. Cicilline. Mr. Chairman.
    Chairman Graves. Does any other Member wish to be heard on 
the amendment? Mr. Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman. I want to speak in 
strong support of the amendment and thank the gentlelady from 
California for raising this really important issue. And I come 
from a district where the Latino community has played a very 
important role in rebuilding the economy of Rhode Island. And I 
recently hosted the administrator of the Small Business 
Administration to Rhode Island, and she, too, spoke about 
nationally the entrepreneurial power and productivity of the 
Latino community.
    And what I think in particular this bill, which involves 
the imposition of pretty serious penalties for noncompliance, 
that in this area in particular we should be sure that people 
are communicated with in a way that most effectively shares 
really vital information which has in it penalties of a million 
dollars.
    And so I would say to the gentlelady that if there is 
another community, you know, next year or the following year 
that is present in the growing entrepreneurial sector of the 
economy, we ought to be prepared to be sure that that community 
has this information in their language as well. I think this is 
the beauty of Congress meeting regularly, we have the ability 
to respond emerging new communities and new languages, and it 
is one of the great strengths of our country. But I think it is 
indisputable that in this moment the Latino community is 
playing a very powerful and important and growing and 
significant role in the development of new businesses. And when 
we are about to enact a set of penalties for noncompliance with 
those, which are very severe, then I think we have to go the 
extra mile to be sure that they are getting that information 
effectively and, in this case, in their language. So I applaud 
the gentlelady from California for her visionary thinking in 
this matter.
    I yield back the balance of my time.
    Ms. Hahn. Well said.
    Chairman Graves. Mr. Coffman.
    Mr. Coffman. Mr. Chairman, government contracting is highly 
technical and requires a master of English. Nobody here is 
saying that these proposals are going to be submitted in other 
languages other than English. And so I think it is an 
unnecessary cost to have it in a different language than what 
we are requiring the submission to be in.
    I yield back, Mr. Chairman.
    Ms. Velazquez. Mr. Chairman? I rest in support of the 
gentle-lady's amendment and I am even open to contemplate 
including other languages. You know, at a time when the economy 
continues to struggle and we know that immigrants are an 
important--they play an important role in our economy, we 
should do everything we can to open opportunities, the door of 
opportunity for immigrants entrepreneurs to participate in the 
federal marketplace. It is not only about knowing the penalties 
if they apply for an award where they do not qualify because of 
their size, but for them to understand what is needed in order 
to qualify as a small business concern.
    Between 2002 and 2007, the number of Hispanic-owned 
businesses in the United States increased by 43.7 percent to 
2.3 million, more than twice the national rate of 18 percent. 
Hispanic-owned businesses, for example, generated $345.2 
billion in sales in 2007, up 55.5 percent compared with 2005. 
And this over trend in Hispanic-owned businesses is likely to 
continue as the Census Bureau reported that the U.S. Hispanic 
population surged 43 percent, rising to 50.5 million in 2010 
from 35 million. Furthermore, an estimated 45 million of this 
demographic speak Spanish.
    And I will ask the gentlelady who spoke before that maybe 
we could work together to make sure the resources are included 
when we are reauthorized ESL programs, so that the resources 
are there for those who want to learn English, and believe me, 
they do. But resources are not there for them to be able to 
have the English language classes that they need.
    As the Hispanic population continues to grow, this 
amendment will ensure that Hispanic-owned businesses have the 
information necessary to determine whether or not they qualify.
    And with that, I yield back.
    Chairman Graves. Ms. Ellmers.
    Ms. Ellmers. I have a question, and it is very simple. Is 
there a cost associated with this? And do we know that number? 
And I guess it would be to the gentlelady who has put forward 
the amendment.
    Ms. Hahn. Thank you. I, at this time, do not have a cost 
estimate of what this would require, but, you know, again, I 
think this is an important step that we can take to let 
entrepreneurs, let small business folks out there in this 
country know that we are on their side. And, again, what we are 
enacting today could cost penalties up to a million dollars for 
some of these small business owners, which I am sure they would 
argue is not something that would be welcome at a time when 
they are trying to get started. So we want them to be in 
compliance.
    And, you know, current law is vague on what documents must 
be made available in a language other than English and what 
constitutes a vital document. So I just think that this ensures 
that our policy matches the facts.
    And I think what we want to do in this Committee is, again, 
be on the side of small businesses. We want to empower them. We 
want to make sure that they are in compliance with Federal 
Government regulations. And so I think this is an important 
amendment and it is a simple one.
    Ms. Ellmers. I want to reclaim the time.
    Chairman Graves. Reclaim your time.
    Ms. Ellmers. I just want to comment then that we do not 
know the cost associated with this, and I think that is 
something that we need to consider. Thank you.
    Chairman Graves. Yes. Mr. Hanna.
    Ms. Velazquez. We have passed legislation before where the 
Chairman said that he did not do the study.
    Chairman Graves. Mr. Hanna.
    Mr. Hanna. If I could ask the gentlelady, Ms. Hahn, why is 
not the overwhelming success of the Hispanic community's growth 
evidence that this is not necessary?
    Ms. Hahn. Well, again, this is because we are enacting a 
new law here, so it has nothing to do with previously whether 
or not Latinos have shown that great American entrepreneurial 
passion. This is that we are enacting a new law that could 
impact them, and I think it is only fair and right that we----
    Mr. Hanna. Well, what I am suggesting----
    Ms. Hahn [continuing]. Translate this in their own 
language.
    Mr. Hanna. I appreciate that, but what I am suggesting is 
that that is actually evidence to the contrary, that people are 
quite capable of managing within the rules that we have. 
Clearly there is a lot to be read, a lot to be done, a lot to 
be studied, and it is obviously going well. I guess your point 
would be that they would do even better maybe.
    Ms. Hahn. Well, I just think it is the right thing to do 
when we enact a law like this to have it published in Spanish. 
I come from California.
    Mr. Hanna. Sure.
    Ms. Hahn. We do this all the time, so it is interesting I 
have this debate where others do not agree with this. This is 
like second nature for us, particularly in Los Angeles.
    Mr. Hanna. Yes, ma'am. Thank you. I yield back.
    Chairman Graves. Mr. West.
    Mr. West. Thank you, Mr. Chairman. And I would like to ask 
the gentlelady from California, do we have the technical 
manuals for a C-17 aircraft in other languages than English?
    Ms. Hahn. I do not know the answer to that.
    Mr. West. I can tell you no. Do you have the technical 
manuals for an F-15/F-16 aircraft or, you know, helicopters in 
other languages than English?
    Ms. Hahn. Well, you know, I do not really see this as being 
along the same subject.
    Mr. West. I do because this is the point. If you are a crew 
chief on these aircraft, you are responsible for that aircraft, 
if that aircraft were to crash we are talking about 
multimillions of dollars in penalties. So if we are not 
producing, you know, technical manuals for the Federal 
Government, United States military, in languages other than 
English, then why do we need to produce this in a language 
other than English?
    So I think that the precedent is established. We have one 
language that we operate in, the Federal Government, and that 
is English. And what the state of California wants to do, that 
is fine. I can tell you in the state of Florida, in South 
Florida, that election ballots are printed in three different 
languages and that is Spanish, Creole, and English. That is 
something they do in South Florida that the Federal Government 
has not mandated. So I do not think that this should be 
mandated from this Committee or as part of this legislation, so 
I will be voting no on this amendment.
    Ms. Hahn. And I just want to, if I may, reply that, again, 
this is not military contracts we are talking about here. This 
is small business contracts and----
    Mr. West. They are.
    Ms. Hahn. Well, I mean, this is, you know, we are talking 
about a document here that we are considering a vital document. 
And according to our policy a vital document can be translated 
in another language.
    Chairman Graves. Mr. Chabot.
    Mr. Chabot. Thank you, Mr. Chairman. I would just start off 
by noting to the gentlelady that some of the resistance that 
you are hearing here from our side, I think we want to be 
welcoming to those folks that are here legally in this country. 
And I know the folks in California are oftentimes trendsetters 
and the rest of us sometimes follow along, but the business of 
this country is generally conducted in English and that has 
been accepted for a long time. Many of us here favor English as 
the official language of our country and I happen to favor that 
as well.
    We also think that it is in the best interest of groups as 
quickly as possible to learn the language of this country, to 
learn English, and they will be far better off, whether it is 
in the schools or whether it is in the business community or 
other. Many of us believe that you are unfortunately holding 
folks back by having exceptions in different languages. They 
are much better off in the long term, and I think there are a 
number of studies that show this, if they learn the language 
now and operate in that language. And I think that this 
particular amendment is in opposition of that.
    So I think that is what you are hearing, at least some of 
the resistance on this side. We think people are much better 
off learning the language of this country and they will be much 
further ahead much more quickly if they do that.
    I yield back.
    Ms. Hahn. Mr. Chair.
    Mr. Schrader. I move the previous question.
    Ms. Hahn. Mr. Chair.
    Chairman Graves. The previous question has been moved, but, 
you know----
    Ms. Hahn. This is such an interesting debate.
    Chairman Graves. It is. The thing is we are running out of 
time and we have one more bill to do, but I do not want to cut 
anybody off. I want anybody to be able to speak that wants to 
speak, but we are running out of time. We got Ms. Chu, we got 
Ms. Clarke, and we got Mr. Bartlett.
    Ms. Chu, if you can, please.
    Ms. Chu. I would like to yield to the gentleman from Rhode 
Island, Mr. Cicilline.
    Mr. Cicilline. I thank the gentlelady. I just want to say 
that I think it is important in this discussion to recognize 
that by suggesting that this amendment, which would require 
that this information be provided to people in Spanish, does 
not mean every document, including airplane manuals or every 
ballot. We are talking about in particular how we help small 
businesses.
    And it is irrefutable when you look at the evidence the 
role that new immigrants play in the start up of new 
businesses, the role that new residents to our country play in 
beginning and growing jobs as a part of creating new 
businesses. There is a special role that new immigrants or 
immigrants to this country often who do not speak English, 
particularly who speak Spanish, are playing in job creation. 
And so it is very different than--of course, I think everyone 
would agree it is easier if you move to a country when you 
learn that language and you are able to integrate fully with 
the language of that country. Of course, that is everyone's 
hope and that will certainly be true.
    But what we are really asking is what is best for our 
country in these early years? And if there is someone who 
speaks Spanish and they are going to start a new business or 
grow a business, being sure that they have information which 
includes a very serious penalty makes sense. And, you know, to 
suggest that by doing that we are arguing that every plane 
manual or every ballot also has to be in Spanish, that is not 
the argument.
    This is a population that is starting new businesses. If 
you look at the statistics of what is the percentage of new 
business in this country that are being started, particularly 
in urban areas, by new immigrants, that people have been here 
less than a couple of years, it is staggering. It is the engine 
of the small business economy in this country. And to suggest 
somehow we should not do everything we can to share information 
with that community in their own language that has very serious 
penalties I think fundamentally ignores reality, the reality of 
the Latino presence in the small business economy of this 
country.
    And I urge people to separate out this notion that we 
cannot do it in this one area without doing it everywhere in 
government for every group. We have the ability to discern 
situations one from the other, and I think this one makes good 
common sense not only for the community that we are reaching 
here that speaks Spanish, but for all of us who benefit from 
the growth of jobs in these new businesses, in Latino 
businesses all across this country.
    And with that, I yield back the balance of my time.
    Chairman Graves. All right. Yield back to Bartlett.
    Mr. Bartlett. Thank you. I am really conflicted on this 
amendment. I have been a very long-time supporter of English 
first. It is the language of commerce in our country. If you do 
not ultimately learn English, you will be relegated generally 
to entry-level kinds of jobs. And so I think that it is 
essential that we encourage people to learn English. But 
English first does not mean English only.
    Ms. Hahn. That is right.
    Mr. Bartlett. And I would be more supportive of this 
amendment if it said that we would provide in digital form for 
downloading a Spanish translation, so that those who needed it 
could get it. I understand the concern of many of those.
    Ms. Hahn. All right, I like that.
    Mr. Bartlett. Okay. Well, if I could make a friendly----
    Ms. Hahn. That is friendly.
    Mr. Bartlett [continuing]. Perfecting amendment to your 
amendment, I would suggest that we provide this in digital form 
for downloading. I think that does away with almost all the 
objections on our side.
    Ms. Hahn. I love it. I will accept that friendly amendment.
    Mr. Bartlett. If we could do that, I think that would help 
to advance this.
    Ms. Hahn. So moved.
    Chairman Graves. We are going to have to have that in 
writing.
    Mr. Coffman. Mr. Chairman, may I offer an amendment to 
that?
    Chairman Graves. No, because that would be in the third 
degree, but we are going to have to have it writing to be able 
to do it, so we are going to have to recess to be able to do 
that.
    Mr. Bartlett. Mr. Chairman, I wonder if we could agree that 
before this goes to the floor that we will work to improve this 
so that she might not withdraw her amendment with the----
    Chairman Graves. I am not going to support the amendment. 
So we can--I mean, I would love to support the gentlelady, but 
I cannot support this amendment.
    Ms. Hahn. Even if downloaded?
    Mr. Bartlett. Can we simply move to the last one and they 
can work this while we are doing the last bill and then we come 
back?
    Ms. Velazquez. Maybe we should move to the next bill and 
let them work on which of that amendment.
    Ms. Hahn. Thank you.
    Mr. Bartlett. Being in writing can be in handwriting, can 
it not?
    Ms. Velazquez. Yes.
    Chairman Graves. Yes.
    Mr. Bartlett. Okay. Thank you and I yield back.
    Chairman Graves. Pursuant to Rule 10 of the Committee----
    Ms. Clarke. Mr. Chairman.
    Chairman Graves. Ms. Clarke, you want to be heard on the 
amendment?
    Ms. Clarke. Yes, I would and thank you, sir. I just wanted 
to add my voice. My colleague, Mr. Hanna, raised a question 
about the fact that we recognize that so many Hispanic 
businesses already exist and are already being successful, but 
what is implied in there is that all of these businesses are 
doing business with the SBA. That is not accurate.
    What we are trying to do is encourage these businesses to 
grow and many of them are mom-and-pop establishments as most 
small businesses start out. Once these businesses have reached 
a certain size they are often seeking ways to grow. And during 
that interim period, these are immigrants who are learning 
English. I think there is a misrepresentation here that people 
are not multitasking. I think the very first thing that 
immigrants who speak another language try to do is, 
particularly when they want to go into business, is to begin 
learning the English language as best they can.
    The challenge is interpreting information, and there is 
oftentimes not a direct translation of how to do business with 
the U.S. Government. What this amendment would do is clarify 
and remove the barriers to the understandings and the 
complexities of doing business with the Federal Government, 
which I believe would certainly help these businesses to expand 
and to become employers of many Americans across the Nation. I 
think this is a small price to pay when you look at the success 
of these businesses; that is, to provide a way for them to 
interpret our laws and keeping with the language that is their 
first language while, at the same time, learning the native 
language of this Nation which has been English and helping 
them, therefore, to move forward.
    So I just wanted to correct an assumption that was sort of 
built into your statement, Mr. Hanna. Many of these businesses 
already operate. They have just never done business with the 
government. And this is a way of building a bridge to their 
access to the programs that we know will help them to expand 
and become employers in our Nation.
    With that, I yield back. Thank you, Mr. Chairman.
    Ms. Hahn. Well said.
    Mr. Hanna. I will withdraw my perfecting amendment.
    Chairman Graves. Does any other Member wish to be heard on 
the amendment? Any other Member wish to be heard on the 
amendment?
    With that, I want to kind of----
    Mr. Cicilline. I would like to offer that perfecting 
amendment in substitution, if I may, Mr. Chairman. I think it 
is an excellent suggestion that the sponsor----
    Chairman Graves. We need it in writing.
    Mr. Cicilline. Pardon me?
    Chairman Graves. We need it in writing.
    Ms. Clarke. We need it in writing. Can we download it?
    Chairman Graves. In English.
    Ms. Clarke. In English.
    Chairman Graves. Does any other Member wish to be heard on 
the amendment? And then we are going to postpone proceedings.
    Ms. Clarke. Mr. Chairman, can we handwrite?
    Ms. Velazquez. Yes.
    Chairman Graves. Yes, you can handwrite it.
    Ms. Clarke. Okay.
    Chairman Graves. What we will do, pursuant to Rule 10 of 
the Committee's rules, proceedings on the amendment will be 
postponed. And we are going to come right back to it just as 
soon as we do the next bill, which is H.R. 4203, the ``Women's 
Procurement Act of 2012,'' which is introduced by Ranking 
Member Velazquez. I now recognize Ms. Velazquez for her opening 
remarks.
    Ms. Velazquez. Thank you, Mr. Chairman. The federal 
government has a 5 percent procurement goal for women-owned 
businesses, established in 1994, that has never been achieved. 
In fact, last year, the government missed the goal by more than 
20 percent. As a result, one of the primary obstacles facing 
women-owned businesses over the last 10 years has been the 
government's failure to implement the Women's Procurement 
Program. Last year, that obstacle was finally removed as the 
final regulations for the Women's Procurement Program were 
released and the program was implemented.
    Through this program women-owned small businesses are now 
eligible for contracts through restricted competition in 83 
industries that have historically had underutilization of 
women-owned businesses. However, the program is far from 
perfect. While parity among small businesses contracting 
programs was achieved two years ago, the women's procurement 
still lags behind. Simply put, contracting offices do not have 
the options under the Women's Procurement Program that they do 
under the HUBZone, 8(a), and Service-Disabled Veterans 
initiatives. To address these issues and maintain parity the 
bills gave federal agencies new tools to award contracts to 
women-owned businesses similar to those that already exist for 
the 8(a), HUBZone, and Service-Disabled Veterans Program.
    For restricted competitions, they will remove the existing 
caps on contracts eligible for set-aside, putting the program 
on par with other small businesses' contracting programs. 
Together these changes support efforts to maintain parity among 
all SBA contracting programs while giving contracting officers 
another tool to make awards to these types of companies.
    There is another key problem that is holding back the 
program. The statutes call for businesses to certify their 
eligibility for the program and for these certifications to be 
verified by either agency contracting officers or third 
parties. What has happened is that the agency procurement 
officers have now become the de facto certifiers, a tedious and 
exacting role that is causing delays in the program's roll-out. 
These procurement officers should not be verifying 
certifications. Instead, they should be working with small 
businesses to award them contracts.
    Making matters worse, the SBA requested inadequate 
resources to support these certifications, making the document 
repository, eligibility examinations, and protest process 
nearly unworkable. To address these issues the legislation 
charges SBA with the responsibility of certifying participants. 
If SBA is unable to do so, SBA may continue to approve third-
party certifiers to carry out such responsibility.
    The truth of the matter is that this is SBA's 
responsibility and they need to step up to the plate and 
certify women-owned businesses for this program to succeed. 
Frankly, I think we are growing tired of the agency's excuses 
that it is someone else's job to certify eligibility for the 
agency's very own programs.
    Strengthening the Women's Procurement Program is critical 
to the 7.8 million women-owned businesses in the United States. 
Making up nearly 30 percent of all businesses across the 
country and generating $1.2 trillion in revenue, they are a 
fast-growing sector of the economy. Ensuring that they have 
access to compete for government contracts is essential for 
their continued growth, and I urge a yes vote on this 
legislation.
    And I yield back the balance of my time.
    Chairman Graves. Are there any other Members who wish to be 
recognized for a statement on ranking member's H.R. 4203?
    Seeing none, I support H.R. 4203. In our last markup I said 
that I did not want to pick winners and losers, but rather 
ensure that all small businesses have the opportunity to 
compete for contracts. Standardizing the various small business 
programs to the extent possible helps meet that objective.
    And I particularly support removing the caps on competitive 
contracts. If we believe in the market, why would we say that 
when multiple firms are competing we need to cap the size of 
the award? I think competition will keep the price reasonable, 
and the contracting officer is required to certify that the 
price that government is paying is fair and reasonable. I do 
urge the Committee to support the bill.
    The Committee now moves to consideration of H.R. 4203. 
Clerk, please report the title.
    The Clerk. H.R. 4203: To amend the Small Business Act with 
respect to the procurement program for women-owned small 
business concerns and for other purposes.
    Chairman Graves. Without objection H.R. 4203 is considered 
as read and open for amendment.
    [The bill H.R. 4203 follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Graves. Does any Member have an amendment?
    Seeing none, the question is on agreeing to H.R. 4203. All 
those in favor say aye.
    [A chorus of ayes.]
    Chairman Graves. All opposed no.
    [No response.]
    Chairman Graves. The opinion of the chair is the ayes have 
it. The ayes do have it. H.R. 4203 is agreed to without 
objection. A quorum being present, the bill is favorably 
reported to the House. And without objection the Committee 
staff is authorized to correct punctuation and make other 
necessary technical changes.
    Counsel. We are still waiting on the copies.
    Chairman Graves. All right, we are waiting on the copies.
    The Committee previously postponed action on H.R. 4206. 
Just as soon as we have the copies we will move forward. How 
long is it going to take?
    Counsel. Two minutes.
    Chairman Graves. The Committee previously postponed action 
on H.R. 4206. Without objection we will now resume these 
discussions.
    Does the gentleman wish to offer a perfecting amendment? 
The amendment is being distributed. The clerk will report the 
amendment to the amendment.
    The Clerk. Amendment offered by Mr. Cicilline of Rhode 
Island, Perfecting Amendment 1 to H.R. 4206 offered by Ms. Hahn 
of California.
    Chairman Graves. With that, does any other Member wish to 
be heard on the amendment to the amendment?
    Ms. Hahn. Yes, I just want to say again, as we are really 
working to protect and support job creators, that was really 
the intention of this amendment. And I think having it 
available to be downloaded really gets rid of the idea that it 
will cost more in the long run.
    Chairman Graves. Any other Member wish to be heard on the 
amendment to the amendment? Ms. Clarke?
    Ms. Clarke. Thank you, Mr. Graves. I just wanted to, again, 
share with my colleagues my support for this amendment and its 
perfecting amendment. I think that we have come to a great 
compromise here.
    There are hosts of small businesses that are growing across 
our Nation that really rely on us to be helpful to them. I know 
of the concerns of my colleagues on the other side of the 
aisle. It is my hope that this perfecting amendment which 
provides this online will ease any concerns that our colleagues 
would have.
    Again, it has been my experience that most immigrants 
really desire to learn the English language, particularly those 
who are involved in commerce. They want to be able to pitch 
their services, their products, and their wares to every 
American, and they recognize that anything that is a barrier to 
that is a barrier to their success.
    So my support for this amendment is a bridge-building 
amendment that enables those who would like to use the services 
of the federal government to expand their businesses, to become 
employers to all Americans, to have this translation available 
that enables them to accurately understand what is required by 
the SBA of them to strengthen, build, and to further their 
pursuits of the American dream.
    With that, Mr. Chairman, I yield back.
    Chairman Graves. Does any other Member wish to be heard on 
the amendment to the amendment?
    We are going to have votes in five minutes. Does any other 
Member wish to be heard on the amendment to the amendment?
    Seeing none, I am going to oppose both. I do not support 
the underlying amendment. I am not going to support the 
amendment to the amendment.
    I believe translating the compliance guidelines into 
another language is just going to be money that is going to be 
spent without actual benefit. This is 10th government 
contracting bill we have marked up and the last 9 have shown 
us, if anything, that government contracting is a very 
technical area. And I am going to back up what Mr. Coffman said 
earlier. In dealing with something technical the choice of 
words matter and a common language allows us to use words with 
precision. And in the case of compliance guidelines that 
precision is especially important because it is a legal 
document.
    The underlying documents themselves are only available in 
English. The Federal Acquisition Regulations is over 2,000 
pages of regulation that all government contractors need to 
understand. It is only available in English. Solicitations are 
only available in English. Government contracts themselves are 
only available in English. And I think the amendment actually 
does very little to help small businesses and it is going to 
add to the cost.
    Therefore, I am opposing the amendment to the amendment and 
the underlying amendment. And with that, the question is on the 
amendment offered by Mr. Cicilline to the amendment. All those 
in favor say aye.
    [A chorus of ayes.]
    Chairman Graves. All opposed no.
    [A chorus of noes.]
    Ms. Hahn. Mr. Chairman, can we have a recorded vote?
    Chairman Graves. A recorded vote has been requested. Clerk, 
please call the roll.
    The Clerk. Chairman Graves.
    Chairman Graves. No.
    The Clerk. Chairman Graves votes no.
    Mr. Bartlett.
    Mr. Bartlett. Yes.
    The Clerk. Mr. Bartlett votes aye.
    Mr. Chabot.
    Mr. Chabot. No.
    The Clerk. Mr. Chabot votes no.
    Mr. King.
    [No response.]
    The Clerk. Mr. King.
    [No response.]
    The Clerk. Mr. Coffman.
    Mr. Coffman. No.
    The Clerk. Mr. Coffman votes no.
    Mr. Mulvaney.
    Mr. Mulvaney. No.
    The Clerk. Mr. Mulvaney votes no.
    Mr. Tipton.
    Mr. Tipton. Aye.
    The Clerk. Mr. Tipton votes aye.
    Mr. Landry.
    [No response.]
    The Clerk. Mr. Landry.
    [No response.]
    The Clerk. Ms. Herrera Beutler.
    Ms. Herrera Beutler. No.
    The Clerk. Ms. Herrera Beutler votes no.
    Mr. West.
    Mr. West. No.
    The Clerk. Mr. West votes no.
    Mrs. Ellmers.
    Ms. Ellmers. No.
    The Clerk. Mrs. Ellmers votes no.
    Mr. Walsh.
    Mr. Walsh. No.
    The Clerk. Mr. Walsh votes no.
    Mr. Barletta.
    Mr. Barletta. No.
    The Clerk. Mr. Barletta votes no.
    Mr. Hanna.
    Mr. Hanna. Yes.
    The Clerk. Mr. Hanna votes aye.
    Mr. Schilling.
    Mr. Schilling. Yes.
    The Clerk. Mr. Schilling votes aye.
    Ranking Member Velazquez.
    Ms. Velazquez. Yes.
    The Clerk. Ranking Member Velazquez votes aye.
    Mr. Schrader.
    Mr. Schrader. Aye.
    The Clerk. Mr. Schrader votes aye.
    Mr. Critz.
    Mr. Critz. Aye.
    The Clerk. Mr. Critz votes aye.
    Ms. Chu--I am sorry, Ms. Clarke.
    Ms. Clarke. Aye.
    The Clerk. Ms. Clarke votes aye.
    Ms. Chu.
    Ms. Chu. Aye.
    The Clerk. Ms. Chu votes aye.
    Mr. Cicilline.
    Mr. Cicilline. Aye.
    The Clerk. Mr. Cicilline votes aye.
    Mr. Richmond.
    [No response.]
    The Clerk. Mr. Richmond.
    [No response.]
    The Clerk. Ms. Hahn.
    Ms. Hahn. Aye.
    The Clerk. Ms. Hahn votes aye.
    Mr. Peters.
    Mr. Peters. Aye.
    The Clerk. Mr. Peters votes aye.
    Mr. Owens.
    Mr. Owens. Aye.
    The Clerk. Mr. Owens votes aye.
    Mr. Keating.
    Mr. Keating. Yes.
    The Clerk. Mr. Keating votes aye.
    Chairman Graves. Does any other Member wish to vote? Any 
Member wish to change their vote?
    The Clerk. Fourteen ayes, nine noes.
    Chairman Graves. On this vote the ayes are 14, the noes are 
9. The amendment to the amendment is agreed to.
    The question is now on the underlying amendment by Ms. 
Hahn. All those in favor say aye.
    [A chorus of ayes.]
    Chairman Graves. All opposed no.
    [A chorus of noes.]
    Chairman Graves. In the opinion of the chair the noes have 
it.
    Ms. Hahn. Could we have a recorded vote on that as well?
    Chairman Graves. A recorded vote has been requested. Will 
the clerk please call the roll?
    The Clerk. Chairman Graves.
    Chairman Graves. No.
    The Clerk. Chairman Graves votes no.
    Mr. Bartlett.
    Mr. Bartlett. Aye.
    The Clerk. Mr. Bartlett votes aye.
    Mr. Chabot.
    Mr. Chabot. No.
    The Clerk. Mr. Chabot votes no.
    Mr. King.
    [No response.]
    The Clerk. Mr. King.
    [No response.]
    The Clerk. Mr. Coffman.
    Mr. Coffman. No.
    The Clerk. Mr. Coffman votes no.
    Mr. Mulvaney.
    Mr. Mulvaney. No.
    The Clerk. Mr. Mulvaney votes no.
    Mr. Tipton.
    Mr. Tipton. Aye.
    The Clerk. Mr. Tipton votes aye.
    Mr. Landry.
    [No response.]
    The Clerk. Mr. Landry.
    [No response.]
    The Clerk. Ms. Herrera Beutler.
    Ms. Herrera Beutler. No.
    The Clerk. Ms. Herrera Beutler votes no.
    Mr. West.
    Mr. West. No.
    The Clerk. Mr. West votes no.
    Mrs. Ellmers.
    Ms. Ellmers. No.
    The Clerk. Mrs. Ellmers votes no.
    Mr. Walsh.
    Mr. Walsh. No.
    The Clerk. Mr. Walsh votes no.
    Mr. Barletta.
    Mr. Barletta. No.
    The Clerk. Mr. Barletta votes no.
    Mr. Hanna.
    Mr. Hanna. No.
    The Clerk. Mr. Hanna votes no.
    Mr. Schilling.
    Mr. Schilling. No.
    The Clerk. Mr. Schilling votes no.
    Ranking Member Velazquez.
    Ms. Velazquez. Aye.
    The Clerk. Ranking Member Velazquez votes aye.
    Mr. Schrader.
    Mr. Schrader. Aye.
    The Clerk. Mr. Schrader votes aye.
    Mr. Critz.
    Mr. Critz. Aye.
    The Clerk. Mr. Critz votes aye.
    Ms. Clarke.
    Ms. Clarke. Aye.
    The Clerk. Ms. Clarke votes aye.
    Ms. Chu.
    Ms. Chu. Aye.
    The Clerk. Ms. Chu votes aye.
    Mr. Cicilline.
    Mr. Cicilline. Aye.
    The Clerk. Mr. Cicilline votes aye.
    Mr. Richmond.
    [No response.]
    The Clerk. Mr. Richmond.
    [No response.]
    The Clerk. Ms. Hahn.
    Ms. Hahn. Aye.
    The Clerk. Ms. Hahn votes aye.
    Mr. Peters.
    Mr. Peters. Aye.
    The Clerk. Mr. Peters votes aye.
    Mr. Owens.
    Mr. Owens. Aye.
    The Clerk. Mr. Owens votes aye.
    Mr. Keating.
    Mr. Keating. Yes.
    The Clerk. Mr. Keating votes aye.
    Chairman Graves. Any Member wish to change their vote?
    Seeing none----
    Ms. Velazquez. Mr. Chairman, as a point of clarification, 
by voting on Ms. Hahn's amendment we are voting on an amendment 
that was voted on Cicilline, and so the vote on this amendment, 
what it does it makes sure that Mr. Cicilline's amendment takes 
precedent over Ms. Hahn's amendment, is it not?
    Chairman Graves. No, Ms. Hahn's amendment has been amended.
    Ms. Velazquez. Yeah. So, in fact, they are voting on the 
language of Mr. Cicilline.
    Chairman Graves. Well, they are voting on the language of 
Ms. Hahn. It has been amended by Mr. Cicilline.
    Clerk, please report the----
    The Clerk. Twelve ayes, 11 noes.
    Chairman Graves. What was it?
    The Clerk. Twelve ayes, 11 noes.
    Chairman Graves. On this vote the ayes are 12, the noes are 
11. The amendment is agreed to.
    With that, the question is on H.R. 4206 as amended. All 
those in favor say aye.
    [A chorus of ayes.]
    Chairman Graves. All opposed no.
    [A chorus of noes.]
    Chairman Graves. In the opinion of the chair, the ayes have 
it. H.R. 4206 is agreed to without objection. A quorum being 
present, the bill is favorably reported to the House without 
objection. Without objection the Committee staff is authorized 
to correct punctuation and make other necessary technical 
corrections and conforming changes.
    With that, that is the five bills. Thanks for everybody 
being here. The markup is adjourned.
    [Whereupon, at 11:16 a.m., the Committee was adjourned.]

</pre></body></html>
